HHS/OIG,"Review of Medicare Payments to DaVita, Incorporated for Epogen Services Provided at Franklin Dialysis Center, Philadelphia, Pennsylvania,"(A-03-03-00003)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Payments to DaVita, Incorporated for Epogen Services Provided at Franklin Dialysis Center, Philadelphia,
Pennsylvania," (A-03-03-00003)
April 21, 2004
Complete
Text of Report is available in PDF format (708 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine if DaVita established adequate internal controls and procedures
to ensure that claims for Epogen were supported and billed in accordance with Medicare requirements.  We found that
44 of the 143 claims reviewed did not meet Medicare payment requirements for Epogen.  We identified inconsistencies
between the number of units of Epogen prescribed in the written physician order, administered by the facility, and billed
to Medicare.  Independent dialysis facilities were required to maintain complete medical records and furnish sufficient
information to support the payment.  During the period when the services included in our review were provided, DaVita
had controls in place for submitting claims that included Epogen.  Based on our review, DaVita personnel did not always
follow those procedures.  In addition, medical records supporting services provided were not always consistently archived.  As
a result, DaVita received payments of $15,096 for Epogen services that did not meet Medicare requirements.  DaVita
personnel could not locate medical records that supported 12 claims.  They believed that lack of storage space, purging
of records, and staff changes lead to inconsistent archiving of medical records.  As a result, we were unable to review
those claims to determine if $15,984 in payments for Epogen met Medicare requirements.